APPENDIX

i
APPENDIX
TABLE OF CONTENTS
Appendix A Opinion in the United States Court of
Appeals for the Third Circuit
(August 20, 2020) . . . . . . . . . . . . . App. 1
Appendix B Order in the United States District
Court District of New Jersey
(January 8, 2019) . . . . . . . . . . . . . App. 7
Appendix C Memorandum Opinion in the United
States Court of Appeals for the Third
Circuit
(February 12, 2002) . . . . . . . . . . . App. 9
Appendix D Letter Opinion in the United States
District Court District of New Jersey
(April 27, 2018) . . . . . . . . . . . . . . App. 14
Appendix E Order in the United States Court of
Appeals for the Third Circuit
(December 19, 2019) . . . . . . . . . . App. 37
Appendix F Certification of Alfonse Inga in the
United States Court of Appeals for the
Third Circuit
(May 8, 2020) . . . . . . . . . . . . . . . App. 39

App. 1

APPENDIX A
NOT PRECEDENTIAL
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 19-1294
[Filed: August 20, 2020]
_________________________________
800 SERVICES, INC.,
)
Appellant
)
)
v.
)
)
AT&T CORP.
)
_________________________________)
On Appeal from the United States District Court
for the District of New Jersey
(D.C. No. 2:98-cv-01539)
District Judge: Honorable Esther Salas
Submitted Under Third Circuit L.A.R. 34.1(a)
on July 7, 2020
Before: McKEE, BIBAS, and FUENTES, Circuit
Judges
(Filed: August 20, 2020)

App. 2
OPINION*
BIBAS, Circuit Judge.
Litigants routinely disagree about how courts
should view evidence. But the losing party cannot just
repackage that disagreement to claim that the winning
party committed fraud on the court.
Starting in 1990, 800 Services agreed to aggregate
telephone traffic for AT&T and to send AT&T a certain
amount of annual revenue. But in 1995, 800 Services
failed to meet its annual revenue commitment. It
thought it could avoid paying charges for coming up
short by restructuring its contract with AT&T or by
transferring some of its telephone traffic to another
aggregator. When those efforts failed, it ultimately
ended the agreement. AT&T assessed $1.4 million in
charges.
To avoid paying up, 800 Services sued AT&T in
1998. AT&T counterclaimed. In 2000, the District
Court granted summary judgment for AT&T and
entered a final judgment for more than $2 million
against 800 Services. We affirmed. 800 Servs. Inc. &
AT&T Corp., 30 F. App’x 21 (3d Cir. 2002). 800
Services never paid the judgment. Eighteen years later,
it moved to vacate the judgment, alleging that the
original proceeding was tainted by fraud on the court.
See Fed. R. Civ. P. 60(b). The District Court denied its
motion. 800 Services now appeals.

*

This disposition is not an opinion of the full Court and, under
I.O.P. 5.7, is not binding precedent.

App. 3
When the facts are undisputed, we review de novo
whether a party committed intentional fraud. In re
Bressman, 874 F.3d 142, 148 (3d Cir. 2017). And
whether the motion is under Rule 60(b) or 60(d), we
review the District Court’s denial for abuse of
discretion. Jackson v. Danberg, 656 F.3d 157, 162 (3d
Cir. 2011). To prove fraud on the court, 800 Services
must show: “(1) an intentional fraud; (2) by an officer of
the court; (3) which is directed at the court itself; and
(4) in fact deceives the court.” Herring v. United States,
424 F.3d 384, 386 (3d Cir. 2005). The proof of fraud
must be “clear, unequivocal and convincing.” Id. at 387
(internal quotation marks omitted). The District Court
held that 800 Services’ allegations did not satisfy the
first and fourth elements of that test. We agree.
Start with deception. To satisfy the fourth element,
800 Services must show that AT&T “successfully
deceived” the District Court in 2000. In re Bressman,
874 F.3d at 150. It cannot. In its 1998 complaint, 800
Services alleged that AT&T had wrongfully rejected its
attempts to transfer its traffic under the
Communications Act. It now argues that AT&T
fraudulently misrepresented the record on that point.
It also argues that AT&T intentionally introduced
deposition testimony by Larry Shipp, who was involved
with 800 Services’ efforts to transfer traffic, that it
knew was false. But there is no evidence that the
District Court relied on either of these alleged
misrepresentations. The court dismissed the
Communications Act claims as barred by the statute of
limitations. And its opinion did not even mention
Shipp’s testimony.

App. 4
800 Services also alleged in its 1998 complaint that
AT&T wrongfully rejected its attempt to restructure. It
now argues that the District Court relied on AT&T’s
purported misrepresentation of the contract’s effective
date in dismissing its intentional-interference claims.
As proof, 800 Services points to the court’s statement of
fact that the complaint’s allegations related to a
contract entered into in 1994. But the court did not
dismiss 800 Services’ claims based on the contract’s
effective date. Rather, the court relied on the testimony
of 800 Services’ own president, who said he did not
pursue the restructuring and did not think his
company qualified for one.
In any event, 800 Services’ restructuring-related
arguments also fail under Herring’s first element:
intentional fraud. Essentially, it argues that its reading
of the contract with AT&T was so clearly right that
AT&T’s contrary reading was fraudulent. The contract
was hardly so clear. 800 Services focuses on an August
1994 agreement between it and AT&T in which it
checked the box next to “upgrade” rather than “new
order.” App. 413. It alleges that this check mark shows
that the contract was not created but just renewed in
1994, so the company was immune from shortfall
charges.
That checked box is not clear, unequivocal, and
convincing evidence of fraud. In fact, a 1993 agreement
was also marked “upgrade,” but 800 Services
characterizes that one as a new agreement. App. 417;
Appellant’s Br. 18. And the operative tariff governing
AT&T’s relationship with businesses like 800 Services
spoke of an “upgrade” to a new contract. Supp. App. 35.

App. 5
AT&T communicated this position, citing the relevant
tariff provision, to 800 Services’ president in a July
1995 letter.
800 Services also directs us to hearsay by AT&T
employees and prior preliminary-injunction decisions
by the District Court in unrelated litigation, as well as
AT&T’s representation of the contract’s effective date
in various court filings to show intentional fraud. This
smattering of evidence from other contexts does not
show that any misstatements were intentional. And
without proving intentionality, 800 Services cannot
show that AT&T committed intentional fraud.
On the contrary, AT&T’s reading of the contract
was debatable. That debate does not make its
representation fraudulent. See Abatti v. Comm’r, 859
F.2d 115, 118 (9th Cir. 1988). Nor is there any evidence
that AT&T deceived or otherwise improperly influenced
the court. See id. A Rule 60 motion is not a way to
present new merits arguments based on evidence that
was in the record in 1998.
800 Services again asserts that AT&T violated the
law and an FCC order. But it already had a chance to
litigate those claims nearly twenty years ago. Still, its
claim that AT&T committed fraud on the FCC is
unpersuasive. In 2018, before the District Court, 800
Services acknowledged that the reason it even
discussed the alleged fraud before the FCC was to
“offer [the] court perspective on [AT&T’s] continuous
pattern of egregious behavior.” Dkt. No. 67 at 1. This is
not fraud, especially when compared to the textbook
example of Hazel-Atlas Glass, in which a lawyer
committed fraud on the court when he illicitly got a

App. 6
patent from the Patent Office and then presented it to
a federal court. Hazel-Atlas Glass Co. v. Hartford
Empire Co., 322 U.S. 238, 245–46 (1944).
Finally, 800 Services argues that AT&T failed to
seek an FCC determination before enforcing the
contract. This charge, however, does not relate to the
conduct of AT&T’s lawyer at summary judgment. It
simply restates a cause of action that has already been
litigated and dismissed.
*****
800 Services repackages merits arguments from the
original litigation as serious allegations of fraud on the
court. Because it has not shown fraud on the court, we
will affirm the District Court’s refusal to reopen this
twenty-year-old case.

App. 7

APPENDIX B
Not for Publication
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
Civil Action No. 98-1539 (ES) (JAD)
[Filed: January 8, 2019]
_________________________________
800 SERVICES, INC.,
)
)
Plaintiff,
)
)
v.
)
)
AT&T CORP.,
)
)
Defendant.
)
_________________________________)
ORDER
SALAS, DISTRICT JUDGE
Before the Court is Plaintiff 800 Services’ motion to
vacate the previous judgment and reopen this case.
(D.E. No. 60). The Court has considered the parties’
submissions and decides the matter without oral
argument. See Fed. R. Civ. P. 78(b). For the reasons
stated on the record on January 8, 2019,
IT IS on this 8th day of January 2019,

App. 8
ORDERED that Plaintiff’s motion is DENIED; and
it is further
ORDERED that this case shall remain CLOSED;
and it is further
ORDERED that the Clerk of Court TERMINATE
docket entry number 60.
s/Esther Salas
Esther Salas, U.S.D.J.

App. 9

APPENDIX C
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
No. 00-3519
[Filed: February 12, 2002]
_________________________________
800 Servs.,
)
)
v.
)
)
AT&T CORP.
)
_________________________________)
MEMORANDUM OPINION
ROTH, Circuit Judge:
Plaintiff 800 Services Inc. appeals from the August
3, 2000 Final Order and the subsequent September 18,
2000 interest calculation Order of the United States
District Court for the District of New Jersey.
800 Services was an “aggregator” of
telecommunications services provided by AT&T.
Aggregators pool telecommunications service in order
to provide discounted service to their customers. AT&T
is a provider of interstate long-distance
telecommunications service. The relationship between
aggregators and providers is contractual in nature, but
the relationship is conducted within the confines of
federal law, particularly Title 11 of the

App. 10
Communications Act of 1934; as amended. See 47
U.S.C. § 201, et seq. (West 2000). A contract between
the parties required 800 Services to compensate AT&T
for any shortfall between the anticipated volume of
usage and the actual volume of services provided by
AT&T.
Plaintiff’s complaint advanced twelve counts. The
Counts included allegations of unjust enrichment,
slander and libel under New Jersey state law,
intentional interference with prospective economic
advantage and similar interference with contractual
relations, unfair competition/trade libel and various
claims under 201, 202 and 203 of the Communications
Act. AT&T counterclaimed for unpaid telephone usage
charges, shortfall charges resulting from contractual
obligations and prejudgment interest. The Final Order
granted AT&T’s motion for summary judgment and
awarded judgment on the counterclaim. Our review of
a District Court’s Final Order to grant summary
judgment is plenary. See Nelson v. County of Allegheny,
60 F.3d 1010, 1012 (3d Cir.1995), cert. denied, 516 U.S.
1173, 116 S. Ct. 1266, 134 L. Ed. 2d 213 (1996).
Summary judgment on the allegations under the
Federal Communications Act was properly granted by
the District Court, as their prosecution was barred by
the applicable statute of limitations. Suits under the
Communications Act must be filed within two years of
“the time the cause of action accrues.” 47 U.S.C.
§ 415(b) (West 2000). 800 Services filed its complaint,
which alleged violations between September 1990 and
July 1995, on April 6, 1998.

App. 11
800 Services argues, however, that although the
most recent alleged violation of the Communications
Act occurred more than two years prior to the
complaint, the claims are not barred due to the
continuing wrong doctrine. The continuing wrong
doctrine applies to toll the statute of limitations if there
is continuing affirmative wrongful conduct. See
Brenner v. Local 514, United Broth. of Carpenters and
Joiners of America, 927 F.2d 1283, 1296 (3rd. Cir.
1991); see also 287 Corporate Center Associates v.
Township of Bridgewater, 101 F.3d 320, 324 (3rd Cir.
1996) (not applying the doctrine when there was no
affirmative act by the defendant within the statutory
period). The District Court correctly found the doctrine
inapplicable in this matter because there was no
continuing affirmative wrongful conduct during the
statutory two year period prior to 800 Services filing of
the complaint.
The District Court also properly granted summary
judgement on the state law claims. Under New Jersey
Law, slander and libel claims must be brought within
one year. See N.J. Stat. ANN. 2A:14-3 (West 2000). 800
Services argues that a six year statute of limitations for
trade libel, as opposed to the one year statute of
limitations for slander and libel, was applicable. The
District Court correctly characterized the statements at
issue as slander and libel, not as trade libel. The
statements did not constitute trade label since there is
no evidence that AT&T made any false statements
regarding 800 Services or its affairs. As such, 800
Services’ claims sound in slander and libel which are
barred by the statute of limitations.

App. 12
The District Court properly granted summary
judgement on the unjust enrichment and tortious
interference state law claims as the claims were
unsupported by the evidence. To survive a motion for
summary judgment, “the non-moving party must make
a showing sufficient to establish the existence of each
element of his case on which he will bear the burden of
proof at trial.” Huang v. BP Amoco Corp, 271 F.3d 560,
564. (3rd Cir. 2001); see Fed.Rules Civ. Proc.Rule 56(c),
28 U.S.C.A. To support its unjust enrichment claim,
800 Services alleged that AT&T improperly used its
customer lists and profited from such conduct without
apportioning profits to 800 Services. The District Court
found that 800 Services offered no admissible evidence
in support of this contention and that the deposition
testimony was based on speculation, conjecture and
industry “buzz.” Such evidence was properly found
insufficient, as it would not carry the burden of proof at
trial. Plaintiff’s brief on appeal does allege that AT&T
would not have been able to switch customers from 800
Services’s accounts to AT&T’s without abuse of the
customer lists. However, the brief does not set forth
any causal connection between the customer list abuse
and the switching of telecommunications providers. An
individual consumer’s choice to switch providers could
be based on a number of different factors and,
therefore, does not necessarily evidence any
impropriety on the part of AT&T.
Similarly, the District Court found a lack of
evidence in support of 800 Services’s tortious
interference claims. Although 800 Services
presumptively argues on appeal that the business

App. 13
would have continued to flourish but for AT&T’s
actions, it offers no details to support that contention.
Finally, 800 Services contests the District Court’s
award of damages under AT&T’s counterclaim. The
agreement between the parties was controlled by the
Tariff No. 2. Tariff No. 2 requires that the aggregator
pay the provider for usage and shortfall charges. 800
Services has not contested incurring usage charges or
the amounts thereof. Rather, 800 Services claims that
AT&T violated an implied covenant of good faith and
fair dealing in the contract execution. As discussed
above, the District Court found a lack of evidence of
slander, libel and tortious interference. Accordingly, we
find that the District Court did not err in awarding
damages for unpaid usage and shortfall charges to
AT&T. These counterclaim defenses offered by 800
Services mirror the claims offered in the complaint; the
defenses similarly lack the requisite evidentiary
foundation.
For the reasons above we affirm the District Court.
By the Court,
/s/ Jane R. Roth

App. 14

APPENDIX D
UNITED STATES DISTRICT COURT
DISTRICT OF NEW JERSEY
[Filed: August 28, 2000]
CHAMBERS
NICHOLAS H. POLITAN
DISTRICT JUDGE
MARTIN LUTHER KING JR.
FEDERAL BUILDING & U.S. COURTHOUSE
50 WALNUT ST, ROOM 5076
P.O. BOX 999
NEWARK, N.J. 07101-0999
NOT FOR PUBLICATION
August 28, 2000
THE ORIGINAL OF THIS LETTER OPINION
IS ON FILE WITH THE CLERK OF THE
COURT
John J. Murray, Jr., Esq.
LAW OFFICES OF LAWRENCE S. COVEN
314 U.S. Highway #22 West
Suite E
Green Brook, NJ 08812
Attorneys for Plaintiff

App. 15
Sharon O. Gans, Esq.
AT&T CORP.
295 North Maple Ave.
Basking Ridge, NJ 07920
Frederick L. Whitmer, Esq.
Richard H. Brown, Esq.
PITNEY, HARDIN, KIPP & SZUCH
P.O. Box 1945
Morristown, NJ 07962-1945
Attorneys for Defendant
Re:

800 Services, Inc.
v. AT&T Corp.
Civil Action No. 98-1539 (NHP)

Dear Counsel:
This matter comes before the Court on the motion
by defendant AT&T Corporation for summary
judgment with respect to the remaining counts of
plaintiff 800 Services’s complaint.1 The Court heard
oral argument on February 29, 2000 and April 17,
2000. For the reasons stated herein, the motion by
defendant AT&T Corporation for summary judgment is
GRANTED and the remaining counts of plaintiff’s
Complaint are hereby DISMISSED WITH
PREJUDICE. Furthermore, AT&T Corporation is
entitled to judgment on its counterclaim in the amount
of $1,782,649.60 plus pre-judgment interest.
Accordingly, this case is CLOSED.

1

Counts 1, 2, 3, and 10 of 800 Services’s Complaint have
previously been dismissed. See Stipulation of Dismissal and Order
dated February 5, 1999; Order dated August 12, 1999.

App. 16
BACKGROUND
Plaintiff 800 Services (hereinafter “800 Services”),
a corporation organized under the laws of the State of
New Jersey, was engaged in the telecommunications
business as an “aggregator” of defendant AT&T
Corporation’s “800” telecommunications services. See
Complaint, ¶¶1, 5-9. As an aggregator, 800 Services
subscribed to certain AT&T high-volume discount plans
and pooled the usage of its customers to satisfy the
minimum volume commitments of the AT&T service
pl a n. See i d. 8 0 0 Servi ces ow ned no
telecommunications facilities of its own and was
AT&T’s customer of record for the services to which it
subscribed. See id. In turn, the customers whose usage
800 Services aggregated were direct customers of 800
Services, not of AT&T. See id., ¶10.
Defendant AT&T Corporation (hereinafter “AT&T”)
provides interstate long-distance telecommunications
service in competition with MCI, Sprint, and many
other long-distance carriers and is a “common carrier”
within the meaning of the federal Communications Act
of 1934.
Interstate telecommunications carriers are
regulated by the (“FCC”) pursuant to Title II of the
Communications Act of 1934, as amended. See 47
U.S.C. § 201, et seq. (West 2000). Because AT&T
provides long distance telecommunications services as
a “common carrier” it falls within the purview of the

App. 17
Communications Act. See 47 U.S.C. § 153(10)2; 47
U.S.C. § 201, et seq. (West 2000). As such, it is required
to provide its services to any person upon reasonable
request on terms that are just, reasonable, and
nondiscriminatory. See 47 U.S.C. § 201; 47 U.S.C.
§ 202(a) (West 2000).
The duties owed by common carriers are regulated
through tariffs. Pursuant to § 203, a common carrier
such as AT&T, is required to file “schedules” with the
FCC, commonly referred to as “tariffs,” “showing all
charges” for its services and “the classifications,
practices, and regulations affecting-such charges.” 47
U.S.C. § 203(a) (West 2000). See also MCI
Telecommunications Corp. v. Graphnet, Inc., 881 F.
Supp. 126, 132 (D.N.J. 1995). Once the tariffs have
been filed and permitted by the FCC to become
effective, the common carrier is precluded by statute
from deviating from the terms of its filed tariffs.
According to the statute: “[no] carrier shall . . . extend
to any person any privileges or facilities in such
communication, or employ or enforce any
classifications, regulations, or practices affecting such

2

According to the Act,
The term “common carrier” or “carrier” means any person
engaged as a common carrier for hire, in interstate or
foreign communication by wire or radio or in interstate or
foreign radio transmission of energy, except where
reference is made to common carriers not subject to this
chapter, but a person engaged in radio broadcasting shall
not, insofar as such person is so engaged, be deemed a
common carrier.

47 U.S.C. § 153(10) (West 2000).

App. 18
charges, except as specified in such schedule.” 47
U.S.C. § 203(c) (West 2000). Thus, pursuant to the
“filed rate doctrine/filed tariff doctrine,” the filed rates
are binding on both the carrier and the public. See
Marco Supply Co. v. AT&T, 875 F.2d 434, 436 (4th Cir.
1989) (citations omitted). See also See Fax
Telecommunicaciones, Inc. v. AT&T, 138 F.3d 479, 488
(2d Cir. 1998); MCI Telecommunications Corp. v.
Graphnet, Inc., 881 F. Supp. 126, 132 (D.N.J. 1995).
Despite the fact that strict adherence to the filed
rate/filed tariff doctrine oftentimes produces harsh
results, it is the operative doctrine to be applied by the
courts. See Fax Telecommunicaciones, Inc. v. AT&T,
952 F. Supp. 946 (E.D.N.Y. 1996), aff’d, 138 F.3d 479
(2d Cir. 1998).
In 1991, the FCC adopted rules and regulations
authorizing carriers to establish “contract tariffs” with
their customers. See Fax Telecommunicaciones, Inc. v.
AT&T, 138 F.3d 479, 482 (2d Cir. 1998) (citing In the
Matter of Competition in the Interstate Interexchange
Marketplace, 6 F.C.C.R. 5880 (1991) (hereinafter
“Interstate Interexchange Marketplace”); on
reconsideration, 6 F.C.C.R. 7569 (1991); on further
reconsideration, 7 F.C.C.R. 2677 (1992), on further
reconsideration, 10 F.C.C.R. 4562 (1995)). A contract
tariff contains individually negotiated and tailored
services arrangements reached between a common
carrier and its customer. See Telecom International
America, Ltd. v. AT&T Corp., 67 F. Supp.2d 189, 196
n.4 (S.D.N.Y. 1999); National Communications
Association, Inc. v. American Telephone & Telegraph
Co., No. 92 Civ. 1735, 1998 WL 118174 *27 n.31
(S.D.N.Y. March 16, 1998). The rules and regulations

App. 19
surrounding contract tariffs were designed to “increase
flexibility for customers and promote competition
among carriers.” Fax Telecommunicaciones, 138 F.3d
at 482.
In Fax Telecommunicaciones, the United States
Court of Appeals for the Second Circuit explained the
process whereby contract tariffs become effective. First,
“[a]t least one customer must enter into a contract with
the carrier pursuant to the new tariff in order for the
carrier to file the contract tariff.” Id. (citing 47 C.F.R.
§ 61.3(m)). Furthermore, the contract tariff must be
filed at least fourteen days prior to the effective date of
the contract and must include “the terms of the
contract, a description of the services to be provided,
the price for these services, the minimum volume
commitments for each service, any volume discounts,
as well as other classifications, practices, and
regulations affecting the contract rate thereby
complying with the filing requirements of 47 U.S.C.
§203(a).” Id. (citing Interstate Interexchange
Marketplace at ¶¶91, 121, 122). Upon expiration of the
fourteen days, the contract tariff is effective so long as
neither the FCC nor any member of the public objects.
Id. (citing 47 C.F.R. §§ 61.58(c)(6), 61.42(c)(8)). Finally,
in order not to violate the Act’s prohibition against
discrimination, the carrier must then make the
contract tariff generally available to other similarly
situated customers. See id. (citing Interstate
Interexchange Marketplace at ¶¶91, 129).
In this matter, pursuant to Tariff No. 2, AT&T
offered “inbound” or “800” long-distance
telecommunications services and certain discount plans

App. 20
for such services, including “Customer Specific Term
Plan II” (hereinafter “CSTP II”). AT&T’s CSTP II Plan,
as set forth in Tariff No. 2, provided for discounted
rates and associated promotional discounts and credits
in return for a commitment by the customer to satisfy
an annual Minimum Revenue commitment for the term
of the subscription. See Certification of Daniel H.
Solomon, Exhibit C. A customer subscribes to AT&T’s
CSTP II Plan by executing a Network Services
Commitment Form. Under the tariff, AT&T bills the
aggregator’s individual locations for their portion of the
usage under the plan. However, Tariff No. 2 provides
that AT&T’s customer of record (the aggregator in this
case) assumes all financial responsibility for all of the
designated accounts aggregated under the customer’s
CSTP II Plan and that, in the event any of these
accounts is in default of payment, AT&T will reduce
the plan discount payable to the AT&T customer in the
amount of that default. See id., Tariff No. 2, §3.3.1.0.
Tariff No. 2 further provides that the customer will
incur “shortfall” charges in the event that it does not
satisfy its Minimum Revenue Commitment and
“termination” charges if it discontinues service before
the completion of the term. See id. Tariff No. 2 also
provides that, in the event any shortfall or termination
charges are incurred under a CSTP II Plan, such
charges shall be apportioned among the accounts
aggregated under the plan according to usage and
billed to the individual aggregated locations designated
by the customer. See id.

App. 21
STATEMENT OF FACTS
800 Services subscribed to inbound service offered
by AT&T pursuant to Tariff No. 2 from 1990 through
1994. However, the allegations of the Complaint
concern service to which 800 Services subscribed after
August 1, 1994.
On or about July 22, 1994, Phillip Okin (hereinafter
“Okin”), President of 800 Services, executed a Network
Services Commitment Form for AT&T’s CSTP II Plan.
See Certification of Daniel H. Solomon, Exhibit D. This
form expressly provides:
[t]he service(s) and pricing plan(s) you have
selected will be governed by the rates and terms
and conditions in the appropriate AT&T tariffs
as may be modified from time to time. Your
signature acknowledges that you understand the
terms and conditions under which the service(s)
selected will be provided and that you are duly
authorized to make the commitment(s) and to
order service for each of these locations.
See id.
On August 2, 1994, Scott Landon, on behalf of
AT&T, executed the Network Services Commitment
Form. See id. Pursuant to this subscription, 800
Services agreed to an annual Minimum Revenue
Commitment of $3 million in services per year for three
years. The effective date of this subscription was
August 1, 1994. See id.
During his deposition, Okin testified that, in or
about Fall 1994, his business began declining. See

App. 22
Deposition of Phillip Okin at page 50, lines 11-13. In or
about November to December 1994, 800 Services
discontinued adding new customers to its CSTP Plan.
See Okin Dep. at page 144; lines 5-11.
At some point shortly thereafter, 800 Services was
unable to meet its minimum revenue commitment
under its CSTP Plan for the first year of the third-year
term. See Okin Dep. at page 139, lines 1-11. The record
reveals that Okin then embarked upon a series of
“strategies” seemingly aimed at avoiding the shortfall
charges which, incidentally, Okin believed he did not
have to pay. See Okin Dep. at page 166, lines 3-10. The
first strategy was to request that AT&T extend the
term of its commitment under its August 1, 1994 plan
pursuant to Section 2.5.7 of Tariff No. 2.3 See Solomon
Cert., Exhibit F. 800 Services asserted that it qualified
for an extension under the terms of the tariff because
AT&T’s implementation of an FCC order (which placed
a quota on the number of new “800” numbers available
to each carrier on a weekly basis) prevented 800
Services from satisfying its minimum revenue
commitment. See id.
In responding to Okin’s request in a letter dated
July 14, 1995, AT&T noted that 800 Services did not
show a “cause and affect [sicl relationship between the
governmental order that constrains the supply of 800
numbers and 800 Services, Inc.’s failure to meet its
3

Section 2.5.7 of Tariff No. 2 permits a customer to extend the
original term commitment of its tariffed volume discount plan for
up to one year if the customer fails or is unable to meet its usage
or revenue commitment because of a strike, government order or
other such circumstances. See Solomon Cert., Exhibit C.

App. 23
tariff commitments.” See Solomon Cert., Exhibit G.
AT&T then requested 800 Services to demonstrate that
it already has activated or had firm end-user customer
orders to activate all of its currently reserved numbers
and that it had firm orders for 800 services from enduser customers under its CSTP II Plan that could not
be satisfied due to the unavailability of new numbers.
See id. 800 Services submitted no proof to AT&T that
it already had activated all of its currently reserved
numbers and had firm orders for additional service
that could not be met due to the implementation of the
FCC quota. See Okin Dep. at 93, line 25; page 94, lines
1-10. In fact, Okin testified that no 800 Services order
went unfulfilled because of the FCC “800 number”
quota. See Okin Dep. at page 93, lines 17-24.
In or about July 21, 1995, 800 Services then
attempted to “restructure” its CSTP II Plan. By letter
dated July 25, 1995, AT&T responded to 800 Services’s
request to restructure its CSTP II Plan and outlined
the terms and conditions specified under Tariff No. 2
that were applicable to this request. See Solomon Cert.,
Exhibit I. Specifically, AT&T advised 800 Services that
under the tariff, if 800 Services restructured its
existing CSTP II Plan, 800 Services would remain
liable under the tariff for any shortfall charges accrued
in the first year of its plan and, in the event that 800
Services failed to satisfy its Minimum annual
Commitment for the first year of the existing plan, it
would also be required to repay the promotional credits
paid to 800 Services under the plan. See id. AT&T
advised 800 Services to notify it if 800 Services wished
to proceed with this request. See id. 800 Services never
attempted to proceed with this request. See Okin Dep.

App. 24
at page 94, lines 7-10. In fact, Okin testified that 800
Services did not qualify for a restructuring of its plan
under the terms of the governing tariff. See Okin Dep.
at page 134, lines 7-11.
800 Services next contemplated moving certain
business traffic from its Tariff No. 2 service to CT 516.
Notwithstanding 800 Services’s allegations in its
Complaint, 800 Services has admitted in discovery that
it did not qualify to subscribe directly to CT 516 and
that 800 Services never actually submitted an order to
AT&T for service to CT 516 or under any other contract
tariff or to transfer service from Tariff No. 2 to CT 516.
See Okin Dep. at pages 101-105.
Finally, in or around July 28, 1995, 800 Services
submitted orders to AT&T to delete all its end-user
locations from its CSTP II Plan. See Okin Dep. at page
104. At the time that 800 Services asked to delete all
its customers from its plan, 800 Services had no
arrangements to transition those customers to any
other 800 Services’s plan or to any other
telecommunications service for inbound 800 service.
See Okin Dep., at page 157, lines 14-22; page 158, lines
22-25; page 159, line 1.
On or about April 1, 1996, AT&T rendered a bill to
800 Services in the amount of $382,651.05 allegedly
due and owing for usage charges for inbound
telecommunications services provided to 800 Services
by AT&T pursuant to Tariff No. 2. See Certification of
Naris Sotillo-Sayers, ¶6. In or about May 1, 1996,
AT&T rendered a bill to 800 Services in the amount of
$1,399,998.68 reflecting the amount allegedly due and
owing for shortfall and termination charges because of

App. 25
800 Services’s alleged failure to fulfill the Minimum
Revenue Commitment under its CSTP II plan. See id.,
¶17. AT&T contends that 800 Services never paid any
money to AT&T in satisfaction of the aforementioned
bills and that said amounts remain due and owing.
On April 6, 1998, 800 Services filed a Complaint in
the United States District Court for the District of New
Jersey containing twelve counts.
On June 30, 1998, AT&T filed an Answer and
Counterclaim.
DISCUSSION
I.

Standard of Review

The standard governing a summary judgment
motion is set forth in Fed. R. Civ. P. 56(c), which
provides, in pertinent part, that:
[t]he judgment sought shall be rendered
forthwith if the pleadings, depositions, answers
to interrogatories, and admissions on file,
together with the affidavits, if any, show that
there is no genuine issue as to any material fact
and that the moving party is entitled to a
judgment as a matter of law.
FED. R. CIV. P. 56(c) (West 2000). A fact is material if it
might affect the outcome of the suit under the
governing substantive law. See Anderson v. Liberty
Lobby, Inc., 477 U.S. 242, 255 (1986).
Procedurally, the movant has the initial burden of
identifying evidence that it believes shows an absence
of genuine issues of material fact. See Celotex Corp. v.

App. 26
Catrett, 477 U.S. 317, 324 (1986). When the movant
will bear the burden of proof at trial, the movant’s
burden can be discharged by showing that there is an
absence of evidence to support the non-movant’s case.
See id. at 325. If the movant establishes the absence of
a genuine issue of material fact, the burden shifts to
the non-movant to do more than “simply show that
there is some metaphysical doubt as to material facts.”
Matsushita Elec. Indus. Co. v. Zenith Radio Corp., 475
U.S. 574, 586 (1986).
In this matter, there are no genuine issues of
material fact and therefore, summary judgment is
appropriate.
II.

Communications Act

Counts Eleven and Twelve of 800 Services’s
Complaint purport to allege claims arising under
§§ 201, 202, and 203 of the Communications Act.
The limitations period governing such claims is
found in Section 415(b) of the Act which provides, in
pertinent part: “(a)ll complaints against carriers for the
recovery of damages not based on overcharges shall be
filed with the Commission within two years from the
time the cause of action accrues, and not after, subject
to subsection (d)4 of this section.” 47 U.S.C. §415(b)

4

Section 415(d), which provides:
If on or before expiration of the period of limitation in
subsection (b) or (c) of this section a carrier begins action
under subsection (a) of this section for recovery of lawful
charges in respect of the same service, or, without
beginning action, collects charges in respect of that service,

App. 27
(West 2000). This section applies equally to complaints
brought in a court of law in addition to those claims
filed with the FCC. See Pavlak v. Church, 727 F.2d
1425, 1426-27 (9th Cir. 1984); Ward v. Northern Ohio
Tel. Co., 381 F.2d 16 (6 th Cir. 1967).
800 Services filed the subject Complaint on April 6,
1998 essentially alleging that AT&T engaged in various
violations of the common law and the Communications
Act during a period of time beginning in September
1990 and ending no later than July 1995. The service
upon which plaintiff bases its Complaint commenced on
August 2, 1994, see Complaint, ¶6, and the latest
alleged misdeed AT&T occurred no later than July
1995 when 800. Services requested that its accounts be
deleted, see Complaint, ¶16, and claims that it later
requested transfer to CT 516, see Complaint, ¶21.
Based on plaintiff’s allegations, the most recent
violation occurred no later than July 1995, which is
more than two years prior to the filing of the
Complaint.
In response, 800 Services contends that its claims
brought pursuant to the Communications Act are not
time-barred by the applicable two-year statute of
limitations by virtue of the “continuing wrong”
doctrine.

said period of limitation shall be extended to include
ninety days from the time such action is begun or such
charges are collected by the carrier.
47 U.S.C. §415(d) (West 2000).
Incidentally, there is no dispute that, based on the facts of this
case, this provision does not apply.

App. 28
The “continuing wrong” doctrine applies in
situations where there is evidence of continuing
affirmative wrongful conduct. See 287 Corporate
Center Associates v. Township of Bridgewater, 101
F.3d 320, 324 (3d Cir. 1996) (citing Brenner v. Local
514, United Bhd. of Carpenters and Joiners of Am., 927
F.2d 1283, 1296 (3d Cir. 1991) (emphasis added)). 800
services has failed to allege any facts or establish
through discovery any evidence that AT&T’s alleged
wrongful conduct giving rise to the Communications
Act claims continued beyond the limitations period. 800
Services merely contends that because AT&T
“continues to be unjustly enriched at plaintiff’s
expense,” the continuing wrong doctrine should apply.
As stated above, however, the continuing wrong
doctrine applies to an affirmative act by the alleged
wrongdoer and continuing to be “unjustly enriched”
does not qualify as an affirmative act. Instead, if one
becomes “unjustly enriched” it is, most likely, the
result of an affirmative wrongful act. Because there is
no evidence in the record of an affirmative act of
wrongdoing by AT&T beyond July 1995, 800 Services’s
claims in COUNTS ELEVEN AND TWELVE of the
Complaint for violation of the Communications Act are
DISMISSED WITH PREJUDICE inasmuch as they
are time-barred.
III.

Slander and Libel

Counts Five and Six of 800 Services’s Complaint
purport to allege claims of slander and libel.
N.J.S.A. §2A::14-3 provides:

App. 29
Every action at law for libel or slander shall be
commenced within 1 year next after publication
of the alleged libel or slander.
N.J. STAT. ANN. §2A:14-3 (West 2000).
The latest point in time within which it is alleged
that AT&T made slanderous or libelous statements is
July 1995. As noted above, plaintiff filed the subject
Complaint on April 6, 1998, well over one year after the
slanderous and libelous statements allegedly were
made by representatives of AT&T. Therefore,
COUNTS FIVE AND SIX of the Complaint are
DISMISSED WITH PREJUDICE inasmuch as they
are time-barred.
IV.

Unjust Enrichment

Count Four of 800 Services’s Complaint purports to
allege a claim of unjust enrichment. 800 Services
contends that AT&T became unjustly enriched at its
expense when AT&T utilized 800 Services’s proprietary
customer lists to derive profits without apportioning
the profits. 800 Services also alleges that AT&T
wrongfully collected revenue from end-user customers
without giving 800 Services its share of the profits.
To state a claim for unjust enrichment, a plaintiff
must show “both that defendant received a benefit and
that retention of that benefit without repayment would
be unjust.” VRG Corp. v. GKN Realty Corp., 135 N.J.
539, 554 (1994) (citing Associates Commercial Corp. v.
Wallia, 211 N.J. Super. 231, 243 (N.J. Super. Ct. App.
Div. 1986); Russell-Stanley Corp. v. Plant Indus., Inc.,
250 N.J. Super. 478, 509-510 (N.J. Super. Ct. Ch. Div.
1991)). A plaintiff must show “that it expected

App. 30
remuneration from the defendant at the time it
performed or conferred a benefit on defendant and that
the failure of the remuneration enriched defendant
beyond its contractual rights.” VRG Corp., 135 N.J. at
555.
The deposition testimony submitted by counsel for
800 Services does not support its allegation that AT&T
used proprietary information belonging to 800 Services.
Quite simply, there is no first-party testimony that
AT&T appropriated 800 Services customers. For
example, Okin’s testimony reeks with statements
amounting to nothing more than mere conjecture. A
thorough review of Okin’s testimony reveals that he
simply made assumptions about AT&T’s actions when
his business traffic began to decline. In fact, Okin
admits that none of the customers who left 800
Services ever advised him that they left as a result of
being contacted by AT&T.
Additionally, contrary to what 800 Services would
have this Court believe, nothing in Chris Mehlenbacher
or Susan Rinaldi’s (employees of 800 Services)
deposition testimony provides a factual basis for 800
Services’s conclusion that AT&T was utilizing its
proprietary information. In fact, when questioned
about what he knew about a claim that AT&T was
misusing plaintiff’s proprietary information, Mr.
Mehlenbacher testified that: “[i]t was just, let’s call it
a general buzz in the aggregator industry that they felt
that their accounts were being targeted specifically. I
don’t have a specific conversation that took place.” See
Deposition of Chris Mehlenbacher at page 89, lines 1-5.
Finally, Al Inga’s (another aggregator) testimony is

App. 31
based on what information he was given by Okin and
other aggregators in the industry. See Deposition of Al
Inga at page 32, lines 7-14; page 112-113. See also Okin
Dep. at page 244, lines 12-24.
800 Services also alleges that AT&T wrongfully
collected revenue from end-user customers without
giving 800 Services its share of the profits. However,
800 Services offers no evidence to support this
allegation. Therefore, COUNT FOUR of the Complaint
is DISMISSED WITH PREJUDICE.
V.

Intentional Interference with Prospective
Economic Advantage and Intentional
Interference with Contractual Relations

Counts Seven and Eight of 800 Services’s Complaint
purport to allege claims of intentional interference with
prospective economic advantage and intentional
interference with contractual relations.
“An action for tortious interference with prospective
business relation protects the right ‘to pursue one’s
business, calling or occupation free from undue
influence or molestation.’” Printing Mart-Morristown v.
Sharp Electronics Corp., 116 N.J. 739, 750 (1989).
“What is actionable is ‘[t]he luring away, by devious,
improper, and unrighteous means, of the customer of
another.’” Id.
“The separate cause of action for the intentional
interference with a prospective contractual or economic
relationship has long been recognized as distinct from
the tort of interference with the performance of a
contract.” Id. (citations omitted). Pursuant to New
Jersey law, the elements of a claim for tortious

App. 32
interference with contract are: (1) a plaintiff’s existing
or reasonable expectation of economic advantage or
benefit; (2) a defendant’s knowledge of the plaintiff’s
expectancy by the defendant; (3) wrongful and
intentional interference with that expectancy by the
defendant; (4) a reasonable probability that the
plaintiff would have received the anticipated economic
advantage absent such interference; and (5) damages
resulting from the defendant’s interference.” Pitak v.
Bell Atlantic Network SVCS, Inc., et al., 928 F. Supp.
1354, 1369 (D.N.J. 1996) (citations omitted). Clearly,
the linchpin of the analysis is the “wrongfulness” of the
actions.
800 Services contends that AT&T wrongfully
solicited 800 Services’s customers, thereby causing 800
Services’s business to decline. Specifically, 800 Services
contends that AT&T called 800 Services’s customers,
offered lower rates than those offered by 800 Services,
and told these customers that it would remove any
shortfall charges assessed to them if they would switch
to AT&T. 800 Services also contends that AT&T
tortiously interfered with its business when AT&T
refused to allow 800 Services to restructure its plan.5
As aforementioned, there is no reliable, first-party
testimony in the record that AT&T wrongfully solicited
800 Services’s customers. Even assuming that AT&T
5

800 Services proffers many allegations to support its tortious
interference claims. However, many of these allegations should
have been asserted pursuant to the Communications Act. Since the
Court has already determined that any claims brought pursuant
to the Communications Act are time-barred, the Court will not
address these allegations.

App. 33
contacted 800 Services’s customers and advised those
customers that AT&T disconnected 800 Services, that
a customer could complete calls on the AT&T network
at AT&T’s standard rates, that a customer may also
choose any long-distance carrier, and that a customer
may want to consider direct service with AT&T as an
alternative to no service at all (since Okin testified that
there was no alternative plan in place post-deletion),
such conduct does not strike this Court as “wrongful”.
conduct on the part of AT&T. This is because these
statements allegedly occurred after 800 Services began
defaulting on its payment obligations and, ultimately,
placed these customers in the position of having no 800
service plan at all.
Further, 800 Services’s allegation that AT&T
wrongfully refused its request to restructure is belied
by the testimony if its President. The record reveals
that AT&T responded to 800 Services’s request to
restructure its CSTP II Plan and outlined the terms
and conditions specified under Tariff No. 2 that were
applicable to this request. See Solomon Cert., Exhibit
I. Specifically, AT&T advised 800 Services that under
the tariff, if 800 Services restructured its existing
CSTP II Plan, 800 Services would remain liable under
the tariff for any shortfall charges accrued in the first
year of its plan and, in the event that 800 Services
failed to satisfy its Minimum Annual Commitment for
the first year of the existing plan, it would also be
required to repay the promotional credits paid to 800
Services under the plan. See id. AT&T advised 800
Services to notify it if 800 Services wished to proceed
with this request. See id. 800 Services never attempted
to proceed with this request. See Okin Dep. at page 94,

App. 34
lines 7-10. In fact, Okin testified that 800 Services did
not qualify for a restructuring of its plan under the
terms of the governing tariff. See Okin Dep. at page
134, lines 7-11. Therefore, COUNTS SEVEN and
EIGHT of the Complaint are DISMISSED WITH
PREJUDICE.
VI.

Unfair Competition/Trade Libel

Count Nine of 800 Services’s Complaint purports to
allege claims of unfair competition/trade libel.
In order to prove the tort of trade libel, a plaintiff
must establish “the publication, or communication to a
third person, of false statements concerning the
plaintiff, his property, or his business.” Federal Deposit
Ins. Corp. v. Bathgate, 27 F.3d 850, 871 (3d Cir. 1994)
(citing Henry v. Vaccaro Const. Co. v. A.J. DePace, Inc.,
137 N.J. Super. 512 (Law Div. 1975)).
800 Services argues that AT&T told 800 Services’s
customers that 800 Services was “not responsible in
their business matters.” See 800 Services’s
Supplemental Brief at page 11. To support this
proposition, 800 Services relies on the testimony of
Susan Rinaldi, one of its employees. Contrary to 800
Services’s characterization of that testimony, Susan
Rinaldi testified that in connection with a discussion of
why AT&T allocated shortfall charges to end-user
locations, an employee of AT&T named “Vanessa” said:
“we told the customers because 800 Services didn’t
meet their requirement that they’re being charged back
a penalty.” See Deposition of Susan Rinaldi at page
145, lines 1-12. As pointed out by counsel for AT&T,
the “requirement” referenced therein is the Minimum

App. 35
Annual Commitment in the tariff which, if not met,
gives rise to the imposition of shortfall charges. 800
Services does not dispute, that it did not meet the
Minimum Annual Commitment and, accordingly,
shortfall charges may issue.
In conclusion, 800 Services has not offered any
admissible evidence which demonstrates that AT&T
made false statements concerning 800 Services, its
property or business. Therefore, COUNT NINE of the
Complaint is DISMISSED WITH PREJUDICE.
VII.

AT&T’s Counterclaim

AT&T has filed a Counterclaim seeking judgment
for unpaid usage charges in the amount of $382,651.05
and shortfall charges in the amount of $1,399,998.68
plus pre-judgment interest.
As discussed in greater detail above, the filed tariff
controls the parties’ rights and liabilities as a matter of
law. In this matter, Tariff No. 2 provides that the
payment of invoices is due upon presentation. See
Certification of Daniel H. Solomon, Exhibit C, Tariff
No. 2 § 2.5.3. Pursuant to Tariff No. 2, 800 Services, as
a subscriber to AT&T services pursuant to the tariff, is
obligated to pay all usage charges accrued for services
rendered. Additionally, 800 Services is responsible for
shortfall and termination charges in the event that 800
Services fails to satisfy the minimum usage
commitments. 800 Services has not submitted payment
for any of these charges. The prevailing law entitles
AT&T to judgment for these, charges.
AT&T has submitted a Certification by Noris
Sotillo-Sayers dated December 10, 1999 which certifies

App. 36
that these are the amounts due and owing to AT&T as
a result of services provided to 800 Services under the
CSTP II Plan. Although 800 Services has contested
that it must pay these charges, it does not challenge
the amounts as set forth in the Certification.
CONCLUSION
For the foregoing reasons, the motion by defendant
AT&T Corporation for summary judgment is
GRANTED and the remaining counts of plaintiff’s
Complaint are hereby DISMISSED WITH
PREJUDICE. Furthermore, AT&T is entitled to
judgment on its counterclaim in the amount of
$1,782,649.60 plus pre-judgment interest.
An appropriate Order accompanies this Letter
Opinion.
/s/______________________
NICHOLAS H. POLITAN
U.S.D.J.
ORDERED that AT&T Corporation is entitled to
judgment on its counterclaim in the amount of
$1,782,649.60 plus pre-judgment interest; and it is
further
ORDERED that this case is CLOSED.
/s/______________________
NICHOLAS H. POLITAN
U.S.D.J.

App. 37

APPENDIX E
UNITED STATES COURT OF APPEALS
FOR THE THIRD CIRCUIT
CCO-107
No. 19-1294
(D.N.J. No. 2-98-cv-01539)
[Filed: December 19, 2019]
_______________________________________
800 SERVICES, INC.,
)
Appellant
)
)
v.
)
)
AT&T CORP., a New York corporation
)
_______________________________________)
Present: CHAGARES, RESTREPO and SCIRICA,
Circuit Judges
1. Motion by Appellee AT&T Corp for Summary
Affirmance;
2. Response by Appellant 800 Services Inc to
Motion for Summary Action;
3. Reply by Appellee AT&T Corp to Motion for
Summary Action.
Respectfully,
Clerk/JK

App. 38
_____________________ORDER_______________________
The foregoing motion and responses are considered.
The motion for summary affirmance is denied. The
Clerk shall issue a briefing schedule at the appropriate
time.
By the Court,
s/Anthony J. Scirica
Circuit Judge
Dated: December 19, 2019
JK/cc: Linda T. Pellegrino, Esq.
Richard H. Brown, III, Esq.

App. 39

APPENDIX F
In the United States Court of Appeals
for the Third Circuit
No. 19-1294
[Filed: May 8, 2020]
_______________________________________
800 SERVICES, INC.,
)
)
Plaintiff-Appellant,
)
)
v.
)
)
AT&T CORP., a New York corporation, )
)
Defendant-Appellee. )
_______________________________________)
On Appeal from the United States District Court
for the District of New Jersey, No. 2:98-cv-01539
(Hon. Esther Salas, U.S.D.J.)
CERTIFICATION OF ALFONSE INGA
I, Alfonse Inga, of full age, hereby certify as follows:
1.

I was in the aggregation business from 1989
through June 1996 when AT&T applied shortfall
and termination charges on my end-users. I
owned several companies that were involved in
litigation known as Combined Companies, Inc.,
et al. v. AT&T, CA 95-908 (NHP). The FCC case

App. 40
was under 06-210 that was referred by the Third
District Court to the FCC on May 31, 1996 due
to primary jurisdiction.
2.

Since that time I very familiar with the current
matter which has most of the same issues with
AT&T as I had in my case, and therefore I am
fully familiar with the facts of this matter.

3.

I read AT&T’s Opposition Brief in this matter
and it is filled with many intentional
misrepresentations.

4.

AT&T claims the AT&T’s executive’s
conversations with me were “alleged and
unauthenticated hearsay,” however AT&T
counsel obtained a Court Order to force me to
turn over the 60 hours of audio tapes and has
had them in its possession and control since
1996, and has never questioned the veracity of
many senior AT&T’s executives’ explicit tariff
interpretations.

5.

AT&T’s counsel was not only aware of the
recordings 24 years ago, but was also reminded
of the 60 hours of audio tapes many times over
the past several years in NJFDC and FCC
filings the Combined Companies vs. AT&T
matter.

6.

The transcription of the audio tapes was done by
professional Court Reporter Stanley Rizman.

7.

The audio conversations were done not only to
get an explicit interpretation of AT&T’s tariff,
but also because AT&T’s executives that

App. 41
processed our orders in Minnesota were
concerned that they would be laid off and
therefore advised me that AT&T’s legal
department instituted non-tariffed
practices to force the aggregators out of
business.
8.

My account manager Joseph Fitzpatrick
conceded that AT&T was violating its tariffs to
put the aggregators out of business.
Additionally, Joseph Fitzpatrick advised me
AT&T hired telemarketing staff to put my
company out of business. My lawyer at that
time, Curtis Meanor, advised me to record the
calls. Curtis Meanor advised me that NJ was
one of the states in which it could record a
conversation to be used as evidence even if only
one party to the conversation knew it was being
recorded.

9.

AT&T intentionally violated Customer
Proprietary Network Information (CPNI)
law. This forbids AT&T from discussing another
customer plan, and its customers, let alone
intentionally feeding all of our customers data to
a telemarketing company to solicit. CPNI:
http://about.att.com/csr/home/privacy/full_priv
acy_policy.html#choice

10.

AT&T sent our customer database to their
wholly owned telemarketing firm in Florida,
that I believe was called Trans-Tech, to solicit
all our end-users to get our customers off my
company’s CSTP II/RVPP plan. At that time, my
company had over $50 million in revenue

App. 42
commitments and received a
discount.

28% total

11.

AT&T targeted my end-users, offering my
customers with as small as a $200 a month
phone bill a whopping 53% discount. AT&T
representative Mr. John Slifka claimed on tape
that he had special permission to offer AT&T
Option S CustomNet to bring the accounts back
to AT&T.

12.

The audio tapes were not “hearsay” as AT&T
counsel intentionally misrepresents. AT&T
increased its solicitation of my end-users and
other aggregator end-users when AT&T was
forced to withdraw all its defenses filed within
an FCC Substantial Cause pleading in my case
on June 2, 1995. The Third Circuit May 31, 1996
Order in my case vs AT&T explicitly states
AT&T withdrew its 2.14.95 FCC filed
substantial cause pleading defenses at the
behest of the FCC. The FCC notes obtained
through FOIA indicate the FCC was going to
deny AT&T if AT&T did not withdraw. After
AT&T withdrew all defenses on June 2, 1995,
AT&T no longer processing any more end-user
transfers from 28% discount to 66% discount.
AT&T account manager Joyce Suek faxed me a
document –which AT&T has---informing me
AT&T was no longer processing the
orders—despite the tariff never changing. Ms.
Suek advised me the non-tariffed remedy was
ordered by AT&T legal department.

App. 43
13.

The reason why AT&T sales executives were
calling my office and I was able to record so
many of them was that they erroneously
believed they were calling my end-users. My
office phone number 973 256 5399 was on my
end-user’s customer bill records as their
aggregator. The telemarketers repeatedly
made the mistake of calling my office instead of
the 10,000 end-user customers my company once
had.

14.

When the calls came into my staff my staff
always answered the phone: “Customer Service
how can we help you?” When AT&T started
pitching its 53% discount to my small volume
end-users, my customer service staff turned the
call over to me and I recorded dozens of AT&T’s
CPNI violations.

15.

AT&T senior executives made it clear that their
interpretation of AT&T’s tariff was fed to them
by AT&T’s legal department in cooperation
with AT&T’s “Product House.”

16.

Richard Kurth was AT&T’s Product house
manager that was involved in creating AT&T’s
tariffed offerings. I have spoken with Richard
Kurth and many AT&T executives, and they all
made it explicitly clear that an upgraded
restructured CSTP II/RVPP plan is not a new
plan as it retains its original grandfathered
terms and conditions, until the end of the 3
year term commitment.

App. 44
17.

AT&T senior in house counsel Edward
Barillari was personally involved in the
Combined Companies case, as his signature is on
AT&T’s 1995 brief to Judge Politan and he spoke
during oral argument. On May 24, 1996 I
directly faxed to Mr. Barillari. In the letter to
Edward Barillari (Attached as Exhibit 1) I refer
to the audio tapes that current AT&T counsel
claims are unauthenticated. Ed Barillari
advised my counsel that he received the letter,
and my counsel advised me that in the future
only my counsel should send Edward Barillari
correspondence. That letter has been filed in my
case many times and AT&T current counsel
Richard Brown that opposed my companies is
the same AT&T counsel opposing 800
Services, Inc.

18.

Richard Brown saw that letter again as recently
as September 19, 2016 in my companies FCC
Comments in case 06-210. I referred to the letter
to Barillari (Exhibit 1) and the audio tapes at
pages 5-7. Mr Brown again misrepresented to
this Court that 60 transcribed hours of audio
taped statements in AT&T’s possession were
“alleged unauthenticated hearsay”.

19.

In Exhibit 1, please note that I do not only refer
to the audio tapes but it also names the AT&T
executives recorded and the fact that AT&T was
prohibiting the assumption of LSTP’s because a
restructured plan is never a new plan.
Notice it also states that there is a restructuring
tariff interpretation argument going on

App. 45
regarding pre-June 17, 1994 plans---despite
AT&T claiming the tariff was explicit. Note the
1996 tariff argument was during the 1-year
review period in which AT&T was in contempt of
the FCC Oct 1995 Order to obtain a tariff
interpretation.
20.

AT&T’s counsel Charles Fash is being quoted in
my letter as saying that his interpretation of the
tariff is that restructures are not new plans.
At that time, AT&T counsel never argued to
Judge Politan from January 1995 through
March 5, 1996 that a restructured contract
became a post June 17, 1994 plan.

21.

It was not until AT&T’s reply brief to the Third
Circuit in April 1996 that AT&T then asserted
for the first time that a restructured plan
was a new plan.

22.

Before Judge Politan, AT&T intentionally misled
the Court that 800 Services, Inc.’s plan was
NEW SERVICE, when Mr Brown knew it was
not, so it could sidestep the issue.

23.

AT&T had already placed shortfall on 800
Services, Inc., end users in October 1995 and my
companies end-users in June 1996.

24.

The letter from AT&T’s senior manager Tom
Umholtz dated June 21, 1994 (Exhibit B to the
Reply Brief) states that it is a collective response
from many AT&T divisions and is written after
the June 17, 1994 shortfall immunity exemption
was tariffed and just PRIOR TO 800 Services,
Inc. July 1994 restructure which Mr. Brown

App. 46
defrauded Judge Politan to be a NEW PLAN.
The Umholtz letter clearly makes a distinction
between a restructure and a new plan.
25.

AT&T’s counsel Meric Block Esq. and many of
the senior AT&T executives that were audio
taped throughout 1995 are copied on the letter
from AT&T’s senior manager Tom Umholtz.
Many of these AT&T executives were also
named in my letter to AT&T senior counsel Ed
Barillari.

26.

AT&T’s tariff interpretation as of the July 1994
was made explicit and AT&T legal and all AT&T
divisions were all involved. They are making
the point that restructures are not new
plans. Only when the aggregator has a new
plan can it upgrade AT&T customers that are on
LSTP contracts. AT&T’s letter stated that this
decision is “consistent with its tariff,” thus
this AT&T tariff interpretation was not only
applicable to my companies, but all aggregators,
obviously including 800 Services, Inc.

27.

This June 1994 letter is conclusive that AT&T
counsel Richard Brown understood AT&T’s
position that restructures were not new plans
prior to 800 Services, Inc.’s July 1994
restructure. Mr. Brown intentionally defrauded
Judge Politan and defrauded this Court that 800
Services’ Inc. had NEW SERVICE. Judge
Politan simply did not understand and/or have
an opportunity to rule on a very complex tariff
issue as to whether the pre-June 17, 1994
grandfathered terms and conditions carry

App. 47
forward to the restructured July 1994 CSTPII
plan; because Judge Politan was intentionally
defrauded by Richard Brown that it was a new
plan.
28.

The phrase “restructuring” an existing contract
was marketplace jargon. On the AT&T Network
Services Commitment Form a restructure is an
UPGRADE. As the evidence submitted
indicates (Exhibits C, D and E to the Opening
Brief) there are multiple boxes on the AT&T
annual commitment form to check. There are
separate boxes for Upgrade versus New Plan.
In July of 1994, 800 Services, Inc. initiated an
UPGRADE of its existing AT&T contract. Hence
is retained the terms and conditions of its
original pre-June 17, 1994 plan, and its critical
grandfathered shortfall exemption. Thus 800
Services, Inc., did not need to meet pro-rated
revenue commitments, when restructuring its
CSTP II/RVPP plan in 1995 as 800 Services,
Inc., was still under grandfathered terms
and conditions and still within its 3-year
term commitment.

29.

In tariff terms a restructure / upgrade is
referred to a “Discontinuation” of the AT&T
CSTP II/RVPP plan.

30.

Much of the audio taped conversations between
myself and AT&T executives regarding whether
or not a restructured CSTP II/RVPP plan was a
new plan was also due to AT&T customers that
were on Location Specific Term Plans (LSTP)
contracts. LSTP’s were contracts AT&T has with

App. 48
its customers that were up to 3 years. If an
AT&T customer under an LSTP did not meet its
term commitment it would be subjected to
substantial AT&T charges.
31.

A way an AT&T business could get out of the
LSTP 3-year contract without penalty is if a
Customer Specific Term Plan (CSTP II/RVPP)
plan holder in the FIRST MONTH OF A NEW
CSTP II/RVPP plan “concurrently” absorbed the
remaining LSTP revenue commitment to obtain
the business revenue.

32.

Even though Tom Umholz made it explicitly
clear that restructures were not new plans that
was not working for AT&T to put the
aggregators out of business. Aggregators would
just restructure its pre-June 17, 1994 plans, like
refinancing a mortgage. As mentioned in my
May 1996 letter to Ed Barillari AT&T came up
with an incredible new interpretation despite
the tariff never changing. AT&T
SIMULTANEOUSLY interpreted that a
restructured CSTP II plan was a NEW PLAN
and asserted we lost our June 17, 1994
grandfathered exemption, and it was NOT a
NEW PLAN so we could not obtain LSTP’s
without penalty! It cannot simultaneously be
both a new plan and not a new plan! AT&T
account manager Joe Fitzpatrick said many
AT&T executives knew it was a fraud what legal
was doing because non aggregator AT&T
customers were never faced such duplicitous

App. 49
tariff violations. Mr Fitzpatrick said he had a
large pension and he just took marching orders.
33.

If it were true that a restructured plan was a
new plan, then AT&T violated its tariff by
prohibiting the penalty free absorption of
LSTP revenue into its CSTP II/RVPP plan.
As the letter to AT&T counsel Barillari indicated
80% of AT&T customers were locked into LSTP
contracts and as my letter stated AT&T took the
position in 1994 and 1995 that we were not
allowed to obtain LSTP’s without penalty. If
restructures were actually new, the revenue that
could have been absorbed penalty free for 2
years would have been used to meet the CSTP
II/RVPP revenue commitment. Thus AT&T
violated its tariff one way or the other.

34.

This tariff language attached hereto as Exhibit
2 was also sent to AT&T counsel Richard Brown
and filed at the FCC on 9.20.16 at page 10. It
details that the movement of AT&T customers
on a LSTP contracts moving to a new plan
without penalty. As the tariff indicates the
AT&T customers under LSTP contracts move to
our new CSTP II plan “concurrently” to be
allowed to exist without penalty. This means
that only in the 1st month of a NEW CSTP
II/RVPP plan can there be an absorption of
LSTP end-users’ revenue without penalty. No
such penalty immune absorption of LSTP enduser’s revenue without penalty was allowed if
the CSTP II/RVPP was simply restructuring its

App. 50
revenue commitment as that was not a new
plan.
35.

An additional way to conclusively determine
that a restructured upgraded plan is not a NEW
plan is by looking at AT&T’s promotional
offerings.

36.

Attached as Exhibit 3 is an AT&T Network
Services Commitment form in which I placed a
check in the UPGRADE box as 800 Services, Inc.
did in July of 1994.

37.

This contract used the same grandfathered
terms and conditions RVPP ID 2828 that was in
service previously.

38.

Note this was under the Fitness Promo. AT&T’s
promotions allowed its customers like 800
Services, Inc., and my companies to obtain a
promotional credit, but if the customer did not
keep its CSTPII/RVPP plan it would be charged
back the promotional credit that was advanced
upon signing the contract. Since upgraded
restructured contracts were NOT
INTERPRETED as New Plans there was NO
CHARGEBACK. If a new plan was taken out,
then there would be a chargeback. The fact that
800 Services, Inc restructured its CSTPII/RVPP
plan in July 1994 and upgraded from $2,250,000
to $3,000,000 and DID NOT GET charged back
the promotional credit originally obtained,
conclusively confirms as AT&T Mr. Umholtz
stated on 6.21.94 (Exhibit B of the Reply Brief)
that a restructured contract is not a new plan.

App. 51
39.

This exhibit 3 was last seen by AT&T counsel
Richard Brown in September 2016 in my case.
Furthermore, if you look at the lower right
corner see JA468. JA is for “Joint Appendix” and
this was part of the filing in 2004 before the DC
Court, that led to the case the Inga companies
won. The DC Court in 2005 issued a Petition
for Review Granted and ruled that it was
indeed permissible to move traffic only without
the plan transferring from 28% CSTPII plan to
66% discount plan. AT&T violated its tariff in
January 1995 by not transferring the traffic.
AT&T lost the Substantial cause pleading and
had to withdraw all defenses on June 2, 1995.
AT&T legal ordered Ms. Suek to unlawfully shut
down the transfer section when it lost all
defenses on June 2, 1995. The DC Court
determined traffic only can transfer under the
transfer section, whereas the FCC only believed
the end-user accounts had to be deleted from the
28% plan and signed to the 66% plan. This
means 800 Service’s Inc. was also was
unlawfully denied its April 1995 traffic transfer
as well.

40.

Notice there is also a box for NEW ORDER.
Obviously, there is difference between a NEW
ORDER and an UPGRADE. Based upon Mr.
Brown’s fraudulent misrepresentation asserted
upon Judge Politan that a restructure is new
service, and now this Court, obviously there
would not need to be separate boxes if
upgrades were actually new!

App. 52
41.

You will also notice that this AT&T contract was
sent to AT&T’s Minnesota FEC---and Mr.
Umholtz cited this AT&T department as
understanding restructures were not new
plans. Many of the people from MFEC where
recorded on the audio tapes that AT&T Counsel
Mr. Brown intentionally misrepresented as
hearsay, alleged and unauthenticated.
Additionally, these same MFEC people are
named in the letter to Edward Barillari as being
audio taped.

42.

I have been advised by FCC’s Randolph
Smith, who is involved in the approval of
AT&T tariff filings, that AT&T’s
interpretation that a restructured plans becomes
a new plan and loses its grandfathered terms
and conditions prior to the end of the 3 year
contract, is total nonsense, and AT&T counsels
know it. Yet AT&T counsel intentionally
defrauded the NJFDC and this Court and were
in clear contempt of the 1995 FCC Order for not
filing a substantial cause plead to get a tariff
interpretation.

43.

The FCC 2003 Order in the Inga case vs AT&T
which Mr. Brown was involved, recognized there
was a fierce debate as to the duration of the
June 17, 1994 immunity from shortfall
exemption, yet Mr Brown intentionally
misrepresented to this Court the tariff is explicit
that restructures are new plans yet asserted the
plans were not new to prevent us from absorbing
LSTP’s without penalty. AT&T legal simply

App. 53
defrauded this court in my case and in 800
Services, Inc. case.
44.

After AT&T withdrew on June 2, 1995 all its
Tr8179 defenses, Judge Politan issued an
injunction on March 5, 1996. The Third Circuit
vacated the injunction on May 31, 1996 due to
primary jurisdiction.

45.

The Third Circuit referral explicitly stated
AT&T withdrew its Tr8179 defenses on June 2,
1995. Therefore, the only item for the FCC to
interpret as per the Third Circuit referral was
whether section 2.1.8 allowed traffic only to
transfer without the plan transferring.

46.

The FCC did not understand that section
2.1.8 allowed direct traffic only transfers.
However, the FCC ruled that the 28% discount
plan can delete end-users and the 66% discount
plan can sign up end-users under tariff section
3.3.1.Q bullet 4. Therefore AT&T’s tariff did not
preclude aggregators from transferring traffic
only without the plan being transferred. Thus,
FCC ruled in my companies favor in 2003, even
though my companies and 800 Services used
2.1.8; not the delete and add section of the tariff.

47.

The DC Court issued a Petition for Review
Granted decision and corrected the FCC on
the sole issue remaining and determined
section 2.1.8 did allow direct traffic only
transfers.

48.

In 2006 AT&T counsel Richard Brown defrauded
Judge Bassler and a second referral was sent to

App. 54
the FCC in June 2006. We appealed Judge
Bassler’s referral and did not file at the FCC
until December 2006.
49.

On January 12, 2007 the FCC Wirleline Division
issued Order and stated the FCC was corrected
by the DC Court on the sole issue. FCC January
12, 2007 Order:
“The Inga Companies are plaintiffs in
that court proceeding, which was stayed
pending the FCC s resolution of the issue
referred on primary jurisdiction.
Specifically, the Commission was asked to
determine “‘whether section 2.1.8 [of
AT&T’s Tariff FCC No.2] permits an
aggregator to transfer traffic under a
[tariffed] plan without transferring the
plan itself in the same transaction.” In its
Order Primary Jurisdiction Referral, the
FCC initially concluded that section
2.1.8 did not apply to transfers of
traffic alone.’ The United States
Court of Appeals for the District of
Columbia Circuit, however, found
that conclusion to be incorrect.”

DC Circuit Decision determined 2.1.8 allowed traffic
only transfers, whereas the FCC erroneously believed
2.18 only allowed whole plan transfers: Page 10
As the foregoing discussion indicates, we
find the Commission’s interpretation
implausible on its face. First, the plain
language of Section 2.1.8 encompasses all

App. 55
transfers of WATS, and not just
transfers of entire plans.
DC pg.8:
Absent such reliance, the commission
provides us with little reason why the
plain language of Section 2.1.8 fails to
encompass transfers of traffic alone.
50.

The FCC 2007 Order also determined the June
2006 referral was moot
FCC 1.12.07 Order:
As discussed in the 2003 Order on
Primary Jurisdiction Referral, the
Commission has broad discretion under
the Administrative Procedure Act and
Commission rules to decide whether a
declaratory ruling is necessary to
terminate a controversy or remove
uncertainty. When, as here, a petition for
declaratory ruling derives from a primary
jurisdiction referral, the Commission also
will seek to assist the referring court by
resolving issues arising under the Act.
That is our goal here. The district
court’s June 2006 order does not
expand the scope of the issue
previously presented. Rather, we have
been asked to interpret the scope of
section 2.1.8 of AT&T’s Tariff No.2, a
matter already extensively briefed by
the parties.”

App. 56
51.

The FCC Wireline’s Order went on FCC
Circulation on November 2, 2015. In 2016 my
companies added additional declaratory ruling
requests to address the shortfall infliction. The
FCC Commissioners determined its Wireline
Divisions 2007 position that the June referral
was moot was correct and the Commissioners
removed the moot 2006 referral from FCC
circulation in January 2017.

52.

My companies motioned to go to damages in
2018 as the sole Third Circuit item to be
interpreted was resolved and the FCC officially
removed the moot 2006 NFDC referral from
circulation. I was tipped off that AT&T was
bragging about fixing Judge Wigenton and was
provided substantial details. It was uncovered
that Judge Wigenton’s husband Kevin was an
AT&T attorney during the tariff infraction,
that AT&T helped put through law school.
Kevin’s Organization received hundreds of
thousands by AT&T. Evidence showed the
Wigenton’s are strong supporters of their college
Norfolk State University. AT&T hired
hundreds of students from Norfolk State
despite it being a very low academically ranked
college. Judge Wigenton recused her Court as
soon as her Court was presented with these
facts.

53.

Judge Wigenton recused her Court on June 5,
2018 and Judge Chesler took over and oral
argument on June 6, 2018. Judge Chesler said in
less than one day he read 10 orders and 10,000

App. 57
pages of exhibits and directed my company to
file a writ of mandamus at DC Court to force the
FCC to interpret the moot 2006 referral.
54.

Multiple DC Court attorneys warned that if my
companies filed a writ of mandamus to compel
the FCC to rule on a case that was already DC
Court determined against AT&T in 2005, the DC
Court would issue sanctions and ethics charges
against my counsel. AT&T counsel Richard
Brown has a copy of these emails with the DC
Court staff. The DC Counsels stated the case is
not a remand, it is a petition for review
correction of the FCC on the sole issue and the
case is over.

55.

Additional evidence has been discovered
regarding Judge Chesler’s ability to act
unbiased. I cannot elaborate further at this time
what is transpiring. For over 2 months the
Washington DC FBI Head Quarters Unit Chief
reviewed the many gross misrepresentations
made by AT&T counsels—primarily Richard
Brown.

56.

Washington DC FBI contacted the Newark FBI
office and advised the case was already
prescreened. I have been monitoring the
intentional frauds engaged in by Richard Brown
and co-counsel in the 800 Services, case. I
advised local FBI that I will get back to them
with additional intentional misrepresentations.
The additional intentional frauds engaged in by
Richard Brown upon the Third Circuit in the
800 Services, case is being added to an already

App. 58
substantial file, and soon the Newark NJ FBI
will be updated.
Pursuant to 28 U.S.C. § 1746, I certify under
penalty of perjury that the foregoing is true and
correct.
Executed on 5.8.20
Alfonse G. Inga
Alfonse G. Inga

